No. 20-

IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

PROOF OF SERVICE

I, Colleen D. Ball, hereby declare that on this date,
July 21, 2020, I caused an original and ten copies each of
J.J.H.’s Motion for Leave to Proceed In Forma Pauperis
and Petition for Writ of Certiorari to be filed with the
United States Supreme Court by sending them via a
third-party commercial carrier for delivery within 3
calendar days to the Clerk, United States Supreme Court,
1 First Street, N.E., Washington, D.C. 20543.
I further declare that all parties required to be
served with copies of these documents have been served.
Specifically, I served a copy of the Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of
Certiorari upon the following counsel on July 21, 2020, by
depositing the copies with the United States Postal

Service, properly addressed and first-class
prepaid:
Robert J. Mueller
Assistant Corporation Counsel
Attorney for Waukesha County

postage

Waukesha County Corporation Counsel
515 W. Moreland Blvd., Rm. AC330
Waukesha, WI 53188
rjmueller@waukeshacounty.gov
Also on July 21, 2020, I transmitted an electronic
version of these documents to the foregoing counsel.
I declare under penalty of perjury that the
foregoing is true and correct.
Dated this 21st day of July, 2020.

________________________________
Colleen D. Ball
Assistant State Public Defender
Counsel of Record
WISCONSIN STATE
PUBLIC DEFENDER
735 N. Water Street, Suite 912
Milwaukee, WI 53202-4116
(414) 227-4805
ballc@opd.wi.gov

